CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
VISA POWER CARD
Approved Credit Limit: _______
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

1.99% Introductory APR for twelve (12) months from the date your new
card account is opened. When the promotion period expires, the APR on
existing balances will increase to the new APR.

8.99% to 17.99%

After this promotion period, your APR will be
based on an evaluation of your creditworthiness.
APR for Balance Transfers

1.99% Introductory APR for twelve (12) months from the date your new
card account is opened. When the promotion period expires, the APR on
existing balances will increase to the new APR.
After this promotion period, your APR will be 8.99%
an evaluation of your creditworthiness.

APR for Cash Advances

to 17.99% based on

1.99% Introductory APR for twelve (12) months from the date your new
card account is opened. When the promotion period expires, the APR on
existing balances will increase to the new APR.
After this promotion period, your APR will be 8.99%
an evaluation of your creditworthiness.

to 17.99% based on

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee

None

- Transaction Fee for Purchases

None
None
1.00% of each multiple currency transaction in U.S. dollars
0.80% of each single currency transaction in U.S. dollars
None

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $20.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See
Your Account Agreement for more details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03720581-(MXC201-E)

Promotional Period for Introductory APR:
The Introductory APR for purchases, balance transfers and cash advances will apply to transactions posted to Your
Account during the first 12 months following the opening of Your Account. Any existing balances on Utilities Employees
Credit Union loan or credit card accounts are not eligible for the Introductory APR for balance transfers.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at 1-800-288-6423, PRESS 7 to receive oral disclosures of the Military Lending Act disclosure above and a
description of the payment obligation.
Other Fees & Disclosures:
Late Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less, if You are 2 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Returned Convenience Check Fee:
$25.00 or the amount of the returned convenience check, whichever is less. If Your Account is subject to a Returned
Convenience Check Fee, the fee will be charged to Your Account when a convenience check is returned for any reason.
Card Replacement Fee:
$5.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Document Copy Fee:
$12.00 . If Your Account is subject to a Document Copy Fee, except as limited by applicable law, a fee may be charged to
Your Account for each copy of a sales draft or statement that You request (except when the request is made in
connection with a billing error made by the Credit Union).
Rush Fee:
$30.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Statement Copy Fee:
$5.00 . If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy of
a sales draft or statement that You request.
Collection Costs:
You agree to pay all costs of collecting the amount You owe under this Agreement, including court costs and reasonable
attorney's fees.
Periodic Rates:
The Introductory Purchase APR is 1.99% which is a monthly periodic rate of 0.1658%.
The Purchase APR is 8.99% to 17.99% which is a monthly periodic rate of 0.7492% to 1.4992%.
The Introductory Balance Transfer APR is 1.99% which is a monthly periodic rate of 0.1658%.
The Balance Transfer APR is 8.99% to 17.99% which is a monthly periodic rate of 0.7492% to 1.4992%.
The Introductory Cash Advance APR is 1.99% which is a monthly periodic rate of 0.1658%.
The Cash Advance APR is 8.99% to 17.99% which is a monthly periodic rate of 0.7492% to 14992%.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03720581-(MXC201-E)

